o

5
1

r

April 8,2019
Clerk's Office Supreme Court (if the United States
1 First Street, NE
Washington, DC 20543

flci.ufl

Dear Justice Ginsburg:

I A D R u a t)
(rrl-'r- (r

If

r
I am a pro se appellant in Mira v. Argus Media. I plan to submit a petition for writ
US Supreme Court to review Mira v. Argus Media, which was appealed in the Second Circuit. The case
number is 17-1929. I mailed a letter on March 28, 2019 addressed to your honor in which I requested a
35-day extension on my petition deadline.

I understand the deadline for my petition submission is on or about April 25, 2019. According to UPS, the
letter arrived at the Supreme Court on March 29, 2019. The letter stated: "I respectfully request a
deadline extension up to and including 35 days from" the date of April 25, 2019. The letter cited ongoing
related litigation in an inextricably related case before a state appellate court as a factor for a request for
an extension deadline.
An assistant clerk-case analyst, Redmond Barnes, on April 8, 2019 said by phone that he did not construe
the letter as a request for a deadline extension. He said he did not have a copy of the letter. I had called
before in effort to get an update on my request but was unable to leave a voicemail due to a full message
inbox. In another instance, there was no response after being transferred by the main switchboard. On one
occasion a message was not returned.
I would respectfully like to reiterate my request for an extension deadline up to and including 35 days
from what I understand is the pending due date of April 25 2019. Due to the approaching deadline, a
response as soon as possible would be greatly appreciated.
Defendants' counsel are cc'ed on this letter and will be sent a copy. My mailing address is P0 Box
250379, New York, NY 10025.
Thank you for your time and consideration.
Respectfully,
Leslie Moore Mira

RECEIVEI
APR 10 2019

